U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Main Community Health Options, et al. v. United States of America
S.Ct. No. 20-1162

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 19,
2021, and placed on the docket on February 23, 2021. The government’s response is due on
March 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1162
MAINE COMMUNITY HEALTH OPTIONS, ET AL.
USA

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
STEPHEN J. MCBRADY
CROWELL & MORING LLP
1001 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-324-2500
SMCBRADY@CROWELL.COM
WILLIAM L. ROBERTS
FAEGRE DRINKER BIDDLE & REATH
2200 WELLS FARGO CENTER
90 SOUTH SEVENTH STREET
MINNEAPOLIS, MN 55402-3901
612-766-7508
WILLIAM.ROBERTS@FAEGREDRINKER.COM

